TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Improvements Are Needed to Ensure
                        the Central Withholding Agreement
                        Program Fosters Nonresident Alien
                             Withholding Compliance



                                       September 30, 2011

                              Reference Number: 2011-30-117




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information   2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS



IMPROVEMENTS ARE NEEDED TO                           were found in 13 of 47 CWA closed cases with
ENSURE THE CENTRAL WITHHOLDING                       approving and denying CWA applications based
AGREEMENT PROGRAM FOSTERS                            on the timeliness of the submission.
NONRESIDENT ALIEN WITHHOLDING                        CWA specialists do not have detailed guidance
COMPLIANCE                                           for making a determination of ordinary and
                                                     necessary business expenses for justifying a
                                                     reduction of income for determining the proper
Highlights                                           withholding rate under CWAs. In addition, there
                                                     was no consistency in the methodology for
Final Report issued on                               conducting site visits or the amount of
September 30, 2011                                   information captured in the site visitation reports.
                                                     The CWA Program has not established
Highlights of Reference Number: 2011-30-117          performance goals, and current measures do
to the Internal Revenue Service Commissioner         not show if it is fostering NRA compliance.
for the Large Business and International
                                                     WHAT TIGTA RECOMMENDED
Division.
                                                     TIGTA recommended that the Director,
IMPACT ON TAXPAYERS                                  International Individual Compliance, Large
Internal Revenue Code Section 1441 generally         Business and International Division, establish
requires that any United States (U.S.) or foreign    performance goals and identify a method for
person having control of certain U.S. source         measuring the level to which the CWA Program
income must withhold 30 percent of the gross         is fostering compliance. To ensure effective
income prior to any payments made to a               oversight, a quality review process and
nonresident alien (NRA) individual or                managerial guidance should be established.
partnership. The purpose of a Central                Additional training should be given to CWA tax
Withholding Agreement (CWA) is to reduce the         specialists on evaluating ordinary and necessary
30 percent withholding tax rate to be more in line   business expenses submitted with the CWA
with an NRA’s annual projected tax liability.        requests. Procedures should be revised to
However, if NRAs who enter into CWAs are             provide clearer guidance that includes a
allowed to improperly reduce withholding, the        methodology for conducting site visits and
Government’s interest may not be protected.          preparing site visitation reports.

WHY TIGTA DID THE AUDIT                              In their response to the report, IRS management
                                                     agreed with 10 of the 11 recommendations.
This audit was initiated to determine whether the    Management stated they plan to establish goals
CWA Program is working as intended. This             and a standard for measuring program
audit is included in our Fiscal Year 2011 Annual     performance and effectiveness. They plan to
Audit Plan and addresses the major                   determine if CWA cases can be incorporated
management challenge of Globalization.               into their current Quality Measurement System
                                                     Program and establish managerial guidance.
WHAT TIGTA FOUND                                     Future training is planned for CWA tax
CWA Program management has taken positive            specialists. A standard Site Visit Request Form
actions to ensure sensitive information is not       is to be used to ensure the decision-making
transmitted via email to NRAs or their               process is properly documented before a site
representatives. However, managerial oversight       visit request is made. However, management
of the CWA Program needs improvement.                disagreed with the recommendation to revise
There is no managerial guidance or a quality         CWA tax specialist procedures to require that
review process to ensure cases are properly          NRAs have either a Social Security Number or
processed. In 25 of 133 closed cases, tax            an Individual Taxpayer Identification Number in
specialists did not take timely and appropriate      order to receive a CWA.
action. In 37 closed cases, documentation was
missing and/or incomplete. Inconsistencies
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2011


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Are Needed to Ensure the
                             Central Withholding Agreement Program Fosters Nonresident Alien
                             Withholding Compliance (Audit # 201130006)

 This report presents the results of our review to determine whether the Central Withholding
 Agreement Program is working as intended. This audit is included in our Fiscal Year 2011
 Annual Audit Plan and addresses the major management challenge of Globalization.
 Management’s complete response to the draft report is included as Appendix IX.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                       Improvements Are Needed to Ensure the
                                    Central Withholding Agreement Program Fosters
                                      Nonresident Alien Withholding Compliance




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Management Has Taken Positive Actions to Ensure
          Sensitive Information Is Not Transmitted via Email
          to Nonresident Aliens or Their Representatives ........................................... Page 4
          Efforts Have Been Made to Conduct Outreach Regarding
          Nonresident Alien Withholding Requirements ............................................. Page 5
          Better Measures Are Needed to Determine Nonresident
          Alien Tax Compliance for Those Entering Into a Central
          Withholding Agreement ............................................................................... Page 5
                    Recommendation 1:........................................................ Page 6

          Additional Training Should Be Provided to Central
          Withholding Agreement Tax Specialists to Ensure the
          Federal Government’s Interest Is Protected .................................................. Page 6
                    Recommendation 2:........................................................ Page 7

          Few Benefits Were Realized From Site Visits Conducted
          by Central Withholding Agreement Program Tax
          Specialists ..................................................................................................... Page 8
                    Recommendation 3:........................................................ Page 9

                    Recommendation 4:........................................................ Page 10

          Managerial Oversight of the Central Withholding
          Agreement Program Needs Improvement .................................................... Page 10
                    Recommendations 5 through 7:......................................... Page 14

                    Recommendation 8:........................................................ Page 15

          Steps Should Be Taken to Ensure Withholding Agents
          Comply With Rules and Regulations to Withhold the
          Proper Amount of Taxes ............................................................................... Page 15
                                  Improvements Are Needed to Ensure the
                               Central Withholding Agreement Program Fosters
                                 Nonresident Alien Withholding Compliance



               Recommendation 9:........................................................ Page 17

                Recommendations 10 and 11: ........................................... Page 18


Appendices
     Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 19
     Appendix II – Major Contributors to This Report ........................................ Page 21
     Appendix III – Report Distribution List ....................................................... Page 22
     Appendix IV – Illustration of the Relationships Between the Various
     Entities for a Nonresident Alien Involved in a United States Tour .............. Page 23
     Appendix V – Example of a Directed Withholding and Deposit
     Verification (Form 13920) ............................................................................ Page 24
     Appendix VI – Statistics of the Central Withholding Agreement
     Program ......................................................................................................... Page 25
     Appendix VII – Internal Revenue Manual References ................................. Page 26
     Appendix VIII – Glossary of Terms ............................................................. Page 27
     Appendix IX – Management’s Response to the Draft Report ...................... Page 30
            Improvements Are Needed to Ensure the
         Central Withholding Agreement Program Fosters
           Nonresident Alien Withholding Compliance




                 Abbreviations

CWA        Central Withholding Agreement
DWL        Directed Withholding Letter
EFTPS      Electronic Federal Tax Payment System
FY         Fiscal Year
I.R.C.     Internal Revenue Code
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
ITIN       Individual Taxpayer Identification Number
LB&I       Large Business and International
NRA        Nonresident Alien
SSN        Social Security Number
U.S.       United States
                                   Improvements Are Needed to Ensure the
                                Central Withholding Agreement Program Fosters
                                  Nonresident Alien Withholding Compliance




                                                 Background

United States (U.S.) source income from a U.S. trade
                                                                 Non-IRS estimates place
or business, including wages, commissions, interest,            the International Tax Gap
dividends, pensions, and gambling winnings paid to               between $40 billion and
foreign individuals, totals approximately $140 billion            $123 billion annually.
each year and is responsible for a portion of the
International Tax Gap. The International Tax Gap is
defined as taxes owed but not collected on time from a U.S. person1 or foreign person whose
cross-border transactions are subject to U.S. taxation. While the Internal Revenue Service (IRS)
has not developed an accurate and reliable estimate of the International Tax Gap, some non-IRS
estimates place it between $40 billion and $123 billion annually. As a result, compliant
taxpayers have an additional tax burden when noncompliant taxpayers do not pay their legal
obligations.
Internal Revenue Code (I.R.C.) Section (§) 1441 generally requires that any U.S. or foreign
person having control of certain U.S. source income must withhold 30 percent of the gross
income prior to any payments made to a nonresident alien (NRA) individual or partnership. The
person responsible for this withholding is known as a withholding agent.
Treasury Regulation § 1.1441-1(b) (April 2010) requires a withholding agent to withhold income
tax from payments made to the NRA and to pay over the withheld tax to the IRS. In addition,
Treasury Regulation § 1.1441-4(b)(3) (April 2010) stipulates that compensation for personal
services of an NRA may be wholly or partially exempted from withholding if an agreement is
reached between the IRS and the NRA with respect to the amount of withholding required.
This agreement is known as a Central Withholding Agreement (CWA). To be a designated
withholding agent for a CWA, the IRS requires that the person or entity must:
       1. Be an unrelated party to ensure independence in compliance.
       2. Have an independent U.S. bank account.
       3. Be eligible to make Federal tax deposits using the Electronic Federal Tax Payment
          System (EFTPS).
A withholding agent can be held personally liable for any tax required to be withheld. This
liability is independent of the tax liability of the NRA that receives the payment. If the
withholding agent fails to withhold and the NRA fails to satisfy his or her U.S. tax liability, then
both individuals are jointly and severally liable for the tax, as well as any interest and applicable


1
    See Appendix VIII for a glossary of terms.
                                                                                               Page 1
                             Improvements Are Needed to Ensure the
                          Central Withholding Agreement Program Fosters
                            Nonresident Alien Withholding Compliance



penalties. If the NRA satisfies his or her U.S. tax liability, the withholding agent may still be
liable for interest and penalties if he or she fails to withhold the taxes.
To help ensure compliance with I.R.C. § 1441, the CWA Program will send Directed
Withholding Letters (DWL) to withholding agents instructing them to withhold at a rate of
30 percent of the gross U.S. sourced personal service income paid to or for the benefit of the
NRA. However, a 30 percent withholding rate can create a financial hardship for NRAs if the
amount of income actually realized after expenses is much less. To help offset the financial
hardship, Treasury Regulation § 1.1441-4(b)(3) (April 2010) provides that the 30 percent
withholding rate imposed on U.S. sourced personal service income of an NRA individual may be
reduced to a lower withholding rate if a written agreement (i.e., a CWA) is signed by the IRS
Commissioner or his delegate with the NRA individual and other affected parties. The lower
rate of withholding is intended to reflect the NRA’s anticipated Federal income tax liability
computed at the graduated rates after allowing for deductions.
Revenue Procedure 1989-47 provides written guidance to NRA athletes and entertainers
requesting a CWA to reduce their withholding rate. These procedures require that a list of the
names and addresses of the NRAs to be covered by the agreement be submitted with copies of all
contracts regarding the time period and performances or events to be covered. This will include
contracts with employers, agents, and promoters; exhibition halls; persons providing lodging,
transportation, and advertising; and accompanying personnel such as band members or trainers.
A proposed budget containing itemized estimates of all gross income and expenses along with
any documents that substantiate or support the estimates is also to be submitted along with
contact information and the Employer Identification Number for the withholding agent. Upon
approval of the estimated budget and the designated withholding agent, the IRS will prepare a
CWA that must be signed by the designated withholding agent, the covered NRAs, and the
authorized IRS representative.
Each withholding agent is required to file an Annual Withholding Tax Return for U.S. Source
Income of Foreign Persons (Form 1042) and a Foreign Person’s U.S. Source Income Subject to
Withholding (Form 1042-S) for each tax year in which income is paid to a covered NRA with
respect to the period and events covered by the agreement. The IRS will credit the withheld tax
payments that are posted to the withholding agent’s Form 1042 account. Each covered NRA
must also agree to timely file a U.S. Nonresident Alien Income Tax Return (Form 1040NR) or, if
qualified, a U.S. Income Tax Return for Certain Nonresident Aliens With No Dependents
(Form 1040NR-EZ) for the year in which the CWA covers independent personal services.
Proper withholding averts future IRS collection efforts after the NRA has left the United States.
Appendix IV provides a more detailed description of the relationship between the NRA athlete or
entertainer, the promoter, and the withholding agent.
This review was performed at the IRS’s Large Business and International (LB&I) Division
National Headquarters in Washington, D.C., and the LB&I Division’s International Individual
Compliance offices in Las Vegas, Nevada; Portland, Oregon; and Austin, Texas, during the

                                                                                              Page 2
                             Improvements Are Needed to Ensure the
                          Central Withholding Agreement Program Fosters
                            Nonresident Alien Withholding Compliance



period November 2010 through June 2011. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                             Improvements Are Needed to Ensure the
                          Central Withholding Agreement Program Fosters
                            Nonresident Alien Withholding Compliance




                                 Results of Review

The IRS believes it is important to ensure proper tax reporting and payment withholding for
NRAs working in the United States. While the IRS has made an effort to educate the public
regarding NRA withholding requirements, we found that the CWA Program may not be
providing all taxpayers with consistent and fair treatment. In addition, improvements are needed
to ensure the Federal Government’s interests are protected.

Management Has Taken Positive Actions to Ensure Sensitive
Information Is Not Transmitted via Email to Nonresident Aliens or
Their Representatives
When new cases are assigned to CWA tax specialists, Internal Revenue Manual (IRM) 5.24.2.5
requires that initial contact should be made within 72 hours and subsequent contacts should be
made as necessary. These contacts with the taxpayer or his or her authorized representative can
be made via telephone, fax, or mail. However, per IRM 1.10.3, Sensitive But Unclassified
information, which includes Personally Identifiable Information, generally may not be sent by
electronic mail (email) to taxpayers or their representatives. The main purpose behind this
policy is that sensitive data transmitted in emails could be intercepted by unauthorized
individuals or inadvertently sent to the wrong recipient, resulting in unintentional disclosure.
In March 2010, CWA Program management instructed their employees to follow the IRS email
policy that prohibits the use of email to send Sensitive But Unclassified data to taxpayers or their
representatives. Employees were told that they were permitted to send only generic emails. For
example, it would not be a violation of IRS policy to send an unencrypted email to a taxpayer
with a link to a regulation or publication available on IRS.gov. However, it would be a violation
if the email message instructed the recipient to call regarding a case, even if the email did not
identify a case number or a taxpayer’s name.
In October 2010, CWA Program management determined some employees misunderstood the
IRS email policy and were continuing to send unencrypted emails with Sensitive But
Unclassified information to taxpayers and their representatives. As a result, they sent a report to
the Treasury Inspector General for Tax Administration’s Office of Investigations with a list of
employees who had violated the IRS email policy. CWA Program management indicated that
the referred employees received disciplinary actions. All CWA Program employees were once
again reminded of the restrictions on sending Sensitive But Unclassified information in
unencrypted emails. In addition, in January 2011, the Treasury Inspector General for Tax


                                                                                             Page 4
                                 Improvements Are Needed to Ensure the
                              Central Withholding Agreement Program Fosters
                                Nonresident Alien Withholding Compliance



Administration’s Office of Investigations and the IRS Disclosure Office gave presentations to the
CWA employees regarding security and disclosure issues related to sending emails to taxpayers.

Efforts Have Been Made to Conduct Outreach Regarding Nonresident
Alien Withholding Requirements
To its credit, the IRS has made an effort to educate the public regarding NRA withholding
requirements through various outreach methods. According to CWA Program management,
their employees spend approximately 30 percent of their time conducting outreach. This
includes speaking engagements at various seminars, conferences, and the IRS Tax Forums, as
well as personal contacts made to venue management, withholding agents, NRAs, and NRA
representatives through telephone calls or site visits.
Additionally, in February 2008, a telephone forum was conducted to explain the responsibilities
of withholding agents, give an overview of the CWA Program, and provide the public with an
opportunity to ask questions. The questions and answers from this telephone forum and other
outreach events are available on IRS.gov. The web site also directs the taxpayer to the IRS
publication on Withholding of Tax on Nonresident Aliens and Foreign Entities (Publication 515),
which further explains the rules for NRA withholding.

Better Measures Are Needed to Determine Nonresident Alien Tax
Compliance for Those Entering Into a Central Withholding Agreement
Although the CWA Program has been in existence since 1989, the IRS had not established
objectives, goals, or adequate performance measures to ensure the CWA Program is functioning
as intended. IRM 5.24.1.2 states the purpose of the CWA Program “is to foster compliance and
give the NRA athletes and entertainers the opportunity to more accurately reflect their
anticipated tax liability by entering into a CWA.” However, tax specialists do not conduct
follow-up compliance checks to determine if individuals who are given a CWA file their
subsequent year tax returns or make arrangements to full pay their tax obligations. Their current
measures for success are primarily focused on the number of CWAs/DWLs issued and the
amount of revenue generated by the CWAs/DWLs. However, there are no specific measures on
how the CWA Program “fosters” NRA compliance. Appendix VI provides more details on the
statistics the CWA Program uses to measure performance.
The Government Performance and Results Act of 19932 require Federal agencies to establish
standards measuring their performance and effectiveness. Federal managers are seriously
disadvantaged in their efforts to improve program efficiency and effectiveness because of
insufficient articulation of program goals and inadequate information on program performance.

2
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 5
                            Improvements Are Needed to Ensure the
                         Central Withholding Agreement Program Fosters
                           Nonresident Alien Withholding Compliance



If the purpose of the CWA Program is to foster compliance, the IRS needs to consider measures
for determining if the taxpayers who are given an opportunity to decrease their tax withholding
are in compliance with their filing and payment obligations for the tax year(s) of their CWAs.

Recommendation
Recommendation 1: The Director, International Individual Compliance, LB&I Division,
should establish performance goals and identify a method for measuring the level to which the
CWA Program is fostering compliance of the NRAs who receive a CWA.
       Management’s Response: IRS management agreed with this recommendation.
       The Director, International Individual Compliance, will establish objectives for the
       CWA Program. Based on these objectives, the CWA Program will evaluate various
       data sources available to establish goals and a standard for measuring performance and
       effectiveness. It will also establish a timeline of necessary actions to successfully
       accomplish the task.

Additional Training Should Be Provided to Central Withholding
Agreement Tax Specialists to Ensure the Federal Government’s
Interest Is Protected
The IRS needs effective procedures to ensure the CWA Program protects the Federal
Government’s interest among NRA athletes and entertainers. Although there are IRM
procedures specifying the duties for tax specialists, we found they do not provide the specialists
with clear guidance for making a determination of ordinary and necessary business expenses.
These determinations are used as the justification to reduce the amount of income in determining
the proper NRA withholding rate under a CWA.
IRM 5.24.3.10 instructs tax specialists to consult with their group manager if items submitted by
an NRA appear highly questionable. However, the determination as to what would be
considered questionable is made using each employee’s own judgment. Under Revenue
Procedure 2005-32, the IRS could require the NRAs to submit additional evidence to support
that their income and expenses are accurate, truthful, and complete. Prior to January 2011, the
CWA Program did not request this type of detailed information and was not set up to conduct an
in-depth review of a taxpayer’s claimed expenses. However, in January 2011, CWA tax
specialists were told to begin requesting additional documentation for large, unusual or
questionable expense items submitted with CWA requests.
While we believe it is appropriate to assist taxpayers and to limit their burden, reduced taxpayer
burden should not be provided without taking efforts to ensure that the appropriate amount of tax
is being withheld. We reviewed a random sample of 47 closed CWA cases and determined that
30 NRAs claimed substantial expenses that reduced their income to the point of having little to

                                                                                           Page 6
                            Improvements Are Needed to Ensure the
                         Central Withholding Agreement Program Fosters
                           Nonresident Alien Withholding Compliance



no withholding. In addition, the expenses claimed in five of these cases appear to be
questionable. The NRAs in these cases identified gross receipts totaling $2.5 million. Without
CWAs, the NRAs’ withholding would have been approximately $756,000 instead of $126,000
that was actually withheld. This withholding would have resulted in an additional $630,000
being collected.
In each of these cases, it appears that the NRA and/or their representative may have taken
advantage of the CWA Program’s limited expense validation. **********1*********
********************************1********************************************
*********************************1******************************************
*********************************1******************************************
*********************************1*****************. Such a financial endeavor does
not appear to make good business sense and does not seem reasonable considering the amount of
gross receipts and the status of the NRA. Without additional supporting documentation, neither
the tax specialists nor the Treasury Inspector General for Tax Administration could
determine the accuracy of the expense claims. Therefore, we believe the CWA Program should
have obtained the evidence necessary for conducting a more in-depth review to validate the
NRA’s expenses.
While the CWA Program does have a process in place to refer cases for examination, there is no
guidance for identifying the conditions or circumstances that warrant an examination referral.
Additionally, even if these cases are referred for examination, the Examination function’s
involvement comes too late in the CWA process. The accuracy of expense claims should be
addressed as soon as possible to ensure the proper amount of tax is being withheld as part of the
CWA. The current process allows tax specialists to grant the CWAs and then make a referral to
the Examination function. The CWA Program made 12 referrals in Fiscal Year (FY) 2010, of
which only***1*** were selected for examination. ***1*** examinations were ongoing as of
August 4, 2011.
Tax specialists need more specific training for making a determination on ordinary and necessary
business expenses. The lack of effective guidance can result in poor customer service,
inequitable treatment of taxpayers, and a loss of revenue for the Federal Government.

Recommendation
Recommendation 2: The Director, International Individual Compliance, LB&I Division,
should provide additional training to the CWA tax specialists for determining what is considered
ordinary and necessary business expenses.
       Management’s Response: IRS management agreed with this recommendation and
       stated that the training has already been developed and they plan to provide it during
       upcoming Continuing Professional Education training. In addition, the CWA Program
       will continue to consult with Area Counsel to obtain legal advice on large, unusual, or

                                                                                           Page 7
                                 Improvements Are Needed to Ensure the
                              Central Withholding Agreement Program Fosters
                                Nonresident Alien Withholding Compliance



        questionable expenditures identified during the course of negotiations of CWAs with
        NRAs.

Few Benefits Were Realized From Site Visits Conducted by Central
Withholding Agreement Program Tax Specialists
While site visits provide some opportunities for outreach to NRAs and their representatives, their
overall benefit to the CWA Program is questionable. CWA Program management advised us
that tax specialists will periodically conduct site visits to events in accordance with their normal
course of business. The purposes of these visits are to identify additional revenues through
overages on ticket sales and merchandising and additional revenue sources being provided to the
NRA by the event/tour sponsors, as well as to verify income and expense information supplied
for the CWA by the NRA and his or her representative. In addition, these visits are used to
educate NRAs that may not be aware of the CWA Program or their filing requirements, and to
encourage them to request a CWA. When a DWL is issued, the site visit may also be used to
educate the venue on the proper amounts of withholding from the settlement sheet for the event.
We reviewed site visitation reports prepared by tax specialists for 27 events3 that occurred during
the period October 2009 through February 2011 and found: 4
    •   18 site visits were made to 7 boxing events and resulted in only 12 boxers requesting
        CWAs and no additional revenue sources being identified. No problems were identified
        with the income and expense information provided by the NRAs and their representatives
        for the CWAs.
    •   22 site visits were made to 20 music events and resulted in no new CWAs and no
        additional revenue sources being identified. No problems were identified with the
        income and expense information provided by the NRAs and their representatives for the
        CWAs.




3
  There can be multiple site visits for some events. For example, one music event covered multiple days. Also, for a
boxing event, a tax specialist might attend the press conference, weigh-in, and boxing event.
4
  We requested all the site visitation reports for the time period noted. However, the IRS informed us they were not
able to provide one report.
                                                                                                            Page 8
                              Improvements Are Needed to Ensure the
                           Central Withholding Agreement Program Fosters
                             Nonresident Alien Withholding Compliance



Figure 1 provides our summary of the site visitation reports.
                       Figure 1: Summary of Site Visitation Reports
                                                                        Music        Boxing 
                                                                        Event        Event 
              Site visitation reports.                                   20             7 
              Visits to the venue.                                       22            18 
              CWAs secured before visit.                                 87             0 
              CWAs secured after visit.                                   0            12 
              CWAs where NRA was noncompliant.                            0             3 
              Site visit was for a DWL.                                   **1**         **1** 
              Additional revenue sources identified.                      0             0 
              Problems identified with income or expenses 
              provided by NRAs and their representatives.                 0                0 
            Source: Our summary of Site Visitation Reports for events that occurred from
            October 2009 through February 2011.

In addition, we noted there was no consistency in the CWA Program’s methodology for
identifying which venues to select for a site visit or the type and amount of information that was
captured in the site visitation reports. While we did not determine the costs associated with these
site visits (such as transportation and overtime pay), some of these events (e.g., boxing matches
and many of the concerts) may have occurred after regular office hours.
IRM 5.24.3.9 instructs specialists to leave the site once business is concluded. However, it
further states that if the site visit is for a boxing event, the specialist may need to remain at the
site to verify revenue sources and meet with boxing officials. When tax specialists attend an
event like a boxing match, they are provided with a free pass to gain access to the event. In
many cases, they receive preferential seating that is not available for sale to the general public.
Although CWA Program management believes there is a business case for such site visits, we
question the IRS’s rationale due to (1) the limited benefits derived from the site visits and (2) the
potential appearance of professional impropriety. Allowing site visits to continue to be
conducted using existing procedures could potentially cause harm to the CWA Program’s
credibility, as well waste valuable resources on unproductive work.

Recommendations
The Director, International Individual Compliance, LB&I Division, should:
Recommendation 3: Revise CWA tax specialist procedures to clarify criteria for determining
when and why a venue should be selected for a site visit to ensure consistent treatment of
taxpayers.

                                                                                                 Page 9
                               Improvements Are Needed to Ensure the
                            Central Withholding Agreement Program Fosters
                              Nonresident Alien Withholding Compliance



          Management’s Response: IRS management agreed with this recommendation and
          stated that they have already taken actions to address it. According to management, the
          CWA Program has developed a standard Site Visit Request Form to ensure that the
          decision-making process is properly documented before the site visit request is made.
          The development of the Site Visit Request Form should clarify for the CWA tax
          specialists and their managers the criteria to use for determining site visits. The second
          type of control is a two-level managerial approval process.
Recommendation 4: Conduct a study to determine if the current benefits realized by the
CWA Program from the site visits are worth the cost and the potential negative public perception
appearances.
          Management’s Response: IRS management agreed with this recommendation and
          stated that all tax specialists in the CWA Program should be using a standardized Site
          Visit Report that documents the benefits realized from the site visit and the expenses
          associated with the site visit. This standardized reporting will help the IRS conduct the
          cost-benefit analysis.

Managerial Oversight of the Central Withholding Agreement Program
Needs Improvement
The U.S. Government Accountability Office’s Standards for Internal Control in the Federal
Government 5 state that internal controls serve as the first line of defense in safeguarding assets
and preventing and detecting errors and fraud. In short, internal controls, which are synonymous
with management controls, help Federal Government program managers achieve desired results
through effective stewardship of public resources. Although the CWA Program has been in
existence in varying capacities for more than two decades, a dedicated manager to oversee the
CWA tax specialists was not selected until October 2005. At that time, the group consisted of
only two full time and one part time tax specialists. While the current version of the Program
includes a Program Manager, 3 Group Managers, 1 analyst, 25 tax specialists, 4 tax examiners,
and 1 management assistant, there still is no IRM for CWA managers. Considering that group
managers are the “internal controls” that provide oversight to their staff, we believe it is equally
important to have written guidance to assist group managers in carrying out their managerial
responsibilities and to enable them to assess whether their employees are properly handling
NRA cases.

The quality of the CWA Program’s case documentation needs improvement
During our review, we selected and analyzed a random sample of 47 closed CWAs, 42 closed
DWLs, and 44 closed Policy Closure cases processed in FY 2010. Of the 133 closed cases, we

5
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                              Page 10
                                 Improvements Are Needed to Ensure the
                              Central Withholding Agreement Program Fosters
                                Nonresident Alien Withholding Compliance



found that *****1************* had missing and/or incomplete documentation. Figure 2 shows
the type and number of occurrences of missing and incomplete documentation.
                  Figure 2: Types of Missing and Incomplete Documentation
                                 for FY 2010 Closed Cases 6
                                      CWA, DWL, and Policy Closure Cases 
        Number 
                                Description of Missing and Incomplete Documentation 
        of Cases 
           19      Activity Records missing (IRM 5.24.2.2(3)). 
           10      EFTPS receipts missing for CWAs (IRM 5.24.3.8). 
            **1**  Case files missing necessary information (IRM 5.24.2.2(1)). 
            **1**  CWA cases missing signatures for all relevant parties (IRM 5.24.3.2). 
            **1**  DWL cases without documentation of follow‐up with venue (IRM 5.24.3.12(2)). 
            **1**  Policy closures without managerial approval (IRM 5.24.3.13). 
      Source: Our analysis of closed cases from FY 2010.

We also analyzed the closed cases for timeliness and appropriateness of actions taken by the tax
specialists. Out of the 133 closed cases, we identified 25 cases (19 percent) for which the tax
specialists did not take timely and appropriate action.7 Figure 3 shows the type and number of
occurrences of untimely and inappropriate action.
                        Figure 3: Untimely and Inappropriate Action on
                                    FY 2010 Closed Cases
                                      CWA, DWL, and Policy Closure Cases 
         Number  
                                      Description of Untimely and Inappropriate Action 
         of Cases 
                    Contacts were untimely by not contacting the NRA/representative within  
            13      72 hours of case assignment (IRM 5.24.2.5). 
                    Follow‐up contacts were untimely because they were not made within 
            12       8 days after a CWA was sent to the NRA for signature (IRM 5.24.3.2(2)c). 
             **1**  Cases were not assigned timely (delays ranged from 15 days to 3 months).8 
      Source: Our analysis of closed cases from FY 2010.

In addition, we reviewed site visitation reports prepared by tax specialists for ***1*** events that
occurred during the period October 2009 through February 2011. We found that 14 reports

6
  See Appendix VII for detailed definitions of the IRM references that we used as the basis for our criteria.
7
  ***1*** had more than one type of untimely and/or inappropriate action.
8
  Although there is no IRM procedure to identify how long it should take to assign a case, we observed from our
case review that cases were generally assigned the same day they were received. Therefore, it is our opinion that
these cases were not assigned timely. Had the ***1*** been assigned timely, the tax specialists
may have been able to issue DWLs.
                                                                                                           Page 11
                                   Improvements Are Needed to Ensure the
                                Central Withholding Agreement Program Fosters
                                  Nonresident Alien Withholding Compliance



(52 percent) had missing and/or incomplete documentation.9 Figure 4 shows the type and
number of occurrences of missing and incomplete documentation.
                     Figure 4: Missing and Incomplete Documentation for
                    Site Visitation Reports for Events That Occurred During
                              October 2009 Through February 2011
                                                Site Visitation Reports 
          Number of 
                                     Description of Missing and Incomplete Documentation 
           Reports 
             14          Site Visit Reports missing required information (IRM 5.24.3.9.1(2)). 
                              • 14 missing managerial approvals. 
                              •  6 missing one or more required items such as the purpose of the      
                                  visit, revenue sources discussed, or person contacted. 
         Source: Our analysis of Site Visitation Reports for events that occurred from October 2009 through
         February 2011.

During an interview with CWA Program management, we were advised that group managers are
expected to conduct 10 case reviews for mid-term evaluations and 10 case reviews for annual
evaluations. However, there is no IRM guidance for CWA group managers establishing a
standardized methodology for quality case evaluations. There is also no requirement or criteria
for management to evaluate the site visitation reports. In addition, CWA group managers are not
provided any formal training on how to conduct quality reviews. Based on the results of our case
review, it would appear that CWA managerial reviews need improvement. In addition, the
CWA Program is not included in the LB&I Quality Measurement System, which is used by
management to assess program performance, improve work processes, and identify training and
educational needs.

More consistency is needed in dealing with nonresident aliens requesting CWAs
Our review of the random sample of 47 closed CWA cases found several instances of
inconsistent treatment for some NRA athletes and entertainers seeking to enter into CWAs. It
appears that CWA Program management was aware of the inconsistent treatment of the NRAs
and made no effort to prevent it. We believe that management needs to take action to ensure that
all NRAs are treated fairly and that these inconsistencies do not continue.
      • *************************************1*********************************
          ***********************************1*********************************
          ************************************1********************************
          ************************************1********************************.
          IRM 5.24.2.7 states that prior to entering into a CWA, the taxpayer must be in


9
    Some site visitation reports had more than one type of missing or incomplete documentation.
                                                                                                              Page 12
                         Improvements Are Needed to Ensure the
                      Central Withholding Agreement Program Fosters
                        Nonresident Alien Withholding Compliance



    compliance with all prior year filing and paying requirements or currently entered into an
    installment agreement. CWA Program management was aware of the noncompliance of
    these NRAs and still allowed them CWAs, even though some of the other NRAs in our
    sample were required to get into compliance prior to being granted a CWA.
    **********************************1**********************************
    ***********************************1**********************************.
    ***********************************1**********************************
    ************************************1*********************************
    ************************************1*********************************
    ************************************1*********************************
    *************************************1********************************
    **************************************1*******************************,
    **************************************1*******************************
    *************************1****************
•   In nine cases, we found that not all NRAs entering into a CWA were able to provide
    either a Social Security Number (SSN) or an Individual Taxpayer Identification Number
    (ITIN). The total amount of taxes withheld for these 9 cases was $1,330. If these
    individuals were not given a CWA, withholding on their gross receipts would have been
    at the 30 percent rate, which would have been $36,065. ************1*************
    ***********1********************. As result, there is a good possibility that these
    individuals will not comply with their tax return filing requirement.
    CWA Program management does not require NRAs to obtain an ITIN or SSN before
    entering into a CWA if it is their first time in the United States. The CWA Program uses
    a unique case number it creates for use on the CWA. However, this case number cannot
    be used to track taxes withheld or used by the NRA to file his or her Form 1040NR. In
    addition, the IRS Master File requires an SSN or ITIN for storage and retrieval of tax
    information. Further, CWA Program management indicated that some withholding
    agents may not file a Form 1042 or a Form 1042-S if the NRA was unable to obtain an
    SSN or ITIN.
    CWA Program management indicated that many of the NRA athletes and entertainers do
    not meet the criteria established by the Social Security Administration for obtaining an
    SSN. As an alternative, NRAs may apply for an ITIN with an Application for IRS
    Individual Taxpayer Identification Number (Form W-7) when they file a tax return, or
    without filing a tax return if they meet one of several exceptions listed on Form W-7.
    However, none of the exceptions listed specifically relate to obtaining an ITIN in relation
    to earning personal service income. Without an SSN or ITIN, the IRS is unable to
    properly track the withholding payment information of an NRA.



                                                                                       Page 13
                            Improvements Are Needed to Ensure the
                         Central Withholding Agreement Program Fosters
                           Nonresident Alien Withholding Compliance



   •   In 13 cases, we found inconsistencies with approving and denying applications for CWAs
       based on the timeliness of the submission. For example, we found CWAs were issued to
       nine individuals who applied with less than 30 days before a tour or event, yet four other
       individuals in similar situations were denied CWAs. While we did not identify any
       inappropriate actions in the processing of these cases, we believe inconsistencies in the
       approval process give the appearance of preferential treatment for some NRAs.
       Revenue Procedure 1989-47 instructs the NRAs to submit requests for a withholding
       agreement at least 90 days before the agreement is to take effect. The Application for
       Central Withholding Agreement (Form 13930) instructs NRA athletes and entertainers to
       submit an application at least 45 days before the tour begins or the event occurs to allow
       for timely evaluation. It also notes that exceptions will be considered on a case-by-case
       basis. However, CWA Program management informed us that they will attempt to
       establish a CWA for every application received for which there is at least 30 days before
       the tour or event. If an application is received with less than 30 days, CWA Program
       management stated they may attempt to establish a CWA, but it depends on staff
       availability and whether management believes the application can be processed before
       the tour or event begins.

Recommendations
The Director, International Individual Compliance, LB&I Division, should:
Recommendation 5: Establish IRM guidance for CWA managers to ensure effective
oversight for the CWA Program.
       Management’s Response: IRS management agreed with this recommendation.
       IRM guidance will be established for CWA managers to ensure effective oversight for
       the CWA Program.
Recommendation 6: Include the CWA Program in the LB&I Quality Measurement System
review process to ensure cases are properly processed.
       Management’s Response: IRS management agreed with this recommendation. The
       CWA Program will work with the LB&I Quality Measurement System Program Office to
       determine how to incorporate CWA cases into the Quality Measurement System Program
       to ensure that cases are properly processed.
Recommendation 7: Revise CWA tax specialist procedures to require the NRAs to have
either an SSN or ITIN in order to receive a CWA.
       Management’s Response: IRS management did not agree with this
       recommendation. Mandating that NRAs have either an SSN or an ITIN would have the
       effect of prohibiting first-time performers from entering into a CWA. The IRS does not

                                                                                         Page 14
                                  Improvements Are Needed to Ensure the
                               Central Withholding Agreement Program Fosters
                                 Nonresident Alien Withholding Compliance



           believe that tax administration would benefit by denying acceptance into the CWA
           Program of NRAs who are unable to obtain an SSN or ITIN.
           Office of Audit Comment: Allowing an NRA to enter into a CWA for a reduced
           withholding amount of taxes without an SSN or ITIN provides no assurance that the
           NRA will meet his or her filing obligation to determine the proper amount of tax liability.
           We believe NRAs should not be given an unfair advantage over U.S. taxpayers who are
           required to have an SSN, pay their taxes in advance, and file a tax return to receive a
           refund of any overpaid taxes.
Recommendation 8: Establish a standardized time period for accepting and processing all
CWA applications to ensure that all applicants are treated fairly and consistently.
           Management’s Response: IRS management agreed with this recommendation. As
           stated in the Treasury Inspector General for Tax Administration report, Revenue
           Procedure 1989-47 and the Application for CWA conflict on the time period for filing the
           application. However, both allow for the application to be processed at the discretion of
           the IRS. The CWA Program will establish a standardized time period for accepting and
           processing all CWA applications to ensure that all applicants are treated fairly and
           consistently. After a standardized time period is established, both the Revenue Procedure
           and Application for CWA will be updated.

Steps Should Be Taken to Ensure Withholding Agents Comply With
Rules and Regulations to Withhold the Proper Amount of Taxes
Many venues, agents, and promoters that have the responsibility of being withholding agents do
not recognize or fully understand their tax withholding requirements under I.R.C. §1441.
Therefore, it is critical that the CWA Program identifies potential withholding agents and
educate them as to their responsibilities. One way to do this is through the issuance of DWLs.
Tax specialists will issue a DWL 30 days prior to an NRA’s first U.S. event/tour date if a CWA
has not been executed and a DWL is determined to be in the Federal Government’s interest. The
letter directs the withholding agent to withhold taxes at a rate of 30 percent of the gross
U.S. sourced personal service income paid to or for the benefit of the NRA.
After the event or tour has concluded, the tax specialist should be notified by the withholding
agent as to the amount of money that was withheld from the NRA. The withholding agent
generally provides notification through a Directed Withholding and Deposit Verification
(Form 13920).10 The withholding agent fills out the form showing the amount withheld and the
date it was deposited. In some cases, the withholding agent may provide an EFTPS receipt. If
the IRS does not receive a response from the withholding agent, the tax specialist is required to

10
     See Appendix V for an example of a Form 13920.
                                                                                              Page 15
                            Improvements Are Needed to Ensure the
                         Central Withholding Agreement Program Fosters
                           Nonresident Alien Withholding Compliance



initiate one follow-up contact. However, the CWA Program does not have any enforcement
authority to compel withholding agents to respond to its inquiries.
According to CWA Program statistics provided by the IRS for FYs 2008 through 2010,
withholding agents provided deposit information in response to only 29 percent of the DWLs
issued by the CWA Program over the 3-year period. As a result, the CWA Program cannot
determine if the proper amount of tax was withheld and deposited for most of the DWLs issued.
In addition, we reviewed a random sample of 42 closed DWL cases and found only
19 withholding agents had provided deposit notifications to the tax specialists. For the 19 DWL
cases in which tax specialists received a response, withholding agents did not provide an EFTPS
deposit slip in 13 of the cases. For these cases, the withholding agent provided only the
Form 13920. Because the Form 13920 is filled out by the withholding agent, we do not believe
this type of documentation is sufficient to verify a deposit was actually made, as the CWA
Program does not have a way to validate its accuracy. Therefore, the withholding deposits
reported by the CWA Program for DWL cases may be overstated.
As previously noted, designated withholding agents for CWAs are required to have an
independent U.S. bank account and be eligible to make Federal tax deposits using the EFTPS. If
withholding agents for DWLs are submitting deposits directly to the U.S. Treasury, they are also
required to use the EFTPS. However, withholding agents for DWLs are also permitted to make
deposits through third parties, such as a financial institution, using other types of approved
electronic payment methods. In those instances, they would not have an EFTPS deposit slip, but
should receive or be able to obtain some other type of confirmation of the electronic deposit,
such as a confirmation number or bank statement that identifies a payment transfer.
CWA Program management noted that deposits by withholding agents for DWLs are typically
not made for an individual, but rather for all individuals during a specific period of time for
which they are required to withhold Federal income tax. For any deposits that are not solely
related to the DWL individual, the CWA Program would be unable to discern for whom the
deposit was made. That determination would be unable to be made until the withholding agent
submitted the Form 1042-S the following year. However, obtaining a copy of the electronic
deposit slip, or some other form of proof, would at least show that a deposit was made, which we
believe would add credibility to the information written on the Form 13920 by the withholding
agent.
Based on the comparison of withholding deposits made for CWAs versus DWLs, we believe the
IRS could potentially be losing millions of dollars each year by not requiring withholding agents
to provide EFTPS (or some other type of electronic deposit confirmation) verification for DWLs.
Figure 5 illustrates the large disparity in the amount of revenue accounted for as withheld as a
result of DWLs compared to CWAs.




                                                                                         Page 16
                               Improvements Are Needed to Ensure the
                            Central Withholding Agreement Program Fosters
                              Nonresident Alien Withholding Compliance



              Figure 5: Comparison of Revenue Withheld by Withholding
                    Agents to the Number of CWAs and DWLs for
                               FYs 2008 Through 2010
                            FY 2008                      FY 2009                         FY 2010 
                    Number       Revenue       Number        Revenue         Number          Revenue 
                     Issued      Withheld       Issued       Withheld         Issued         Withheld 
     CWAs             655        $49,604,367      944         $59,005,844         994        $47,521,376
     DWLs             993         $9,583,417     1,052        $11,337,891        1,265       $10,988,829
     Actual
     Withholding                $ 59,187,784                 $ 70,343,735                    $ 58,510,205
     Revenue
    Source: Our analysis of CWA Statistical Reports for FYs 2008 through 2010.

*******************************2(f)***************************************
*********************************2(f)****************************************
**********************************2(f)**************************************
**********************************2(f)****************************************
**********************************2(f)**************************************.
Additionally, the LB&I Division is in the process of developing a system, called the e-trak
Non-Resident Filing System, where Form 1042 liabilities can be matched to its related
Form 1042-S. The System is designed to allow document matching and credit verification on
Form 1042-S and the Foreign Partner’s Information Statement of Section 1446 Withholding
Tax (Form 8805). We believe that access to this System may also be beneficial for the
CWA Program. This System should give CWA employees the ability to verify whether a
withholding agent or venue submitted the proper withholding amounts for a particular NRA,
as specified by the CWA or DWL. The first phase of the project, which includes 1042-S data,
became operational in February 2011 but will not be rolled out for Service-wide use until all
phases of development and testing are complete.

Recommendations
The Director, International Individual Compliance, LB&I Division, should:
Recommendation 9: Require CWA tax specialists to request an EFTPS deposit slip, or a
similar electronic deposit confirmation for the DWLs, to help ensure the accuracy of deposits
made by withholding agents.
       Management’s Response: IRS management agreed that this is a necessary
       procedural step. According to IRM 5.24.3.8, the CWA Program currently requires tax
       specialists to request an EFTPS deposit slip or a similar electronic deposit confirmation
       for the DWLs.

                                                                                                      Page 17
                           Improvements Are Needed to Ensure the
                        Central Withholding Agreement Program Fosters
                          Nonresident Alien Withholding Compliance



Recommendation 10: Conduct a study to determine a way to improve the withholding
agents’ response rate to the DWLs with information regarding withholding.
       Management’s Response: IRS management agreed with this recommendation. The
       CWA Program will conduct a study to determine whether it is possible to improve the
       withholding agents’ response rate to the DWLs with information regarding withholding.
Recommendation 11: Evaluate the e-trak Non-Resident Filing System (when it becomes
available) to see if access for CWA tax specialists will enable them to verify withholding
deposits.
       Management’s Response: IRS management agreed with this recommendation. At
       the time the e-trak Non-Resident Filing System becomes available, the CWA Program
       will work with the International Business Compliance foreign payments group to
       evaluate whether providing access to CWA tax specialists will enable them to verify
       withholding deposits.




                                                                                      Page 18
                                 Improvements Are Needed to Ensure the
                              Central Withholding Agreement Program Fosters
                                Nonresident Alien Withholding Compliance



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the CWA Program is working as intended. To
accomplish our objective, we:
I.       Identified a volume of 1,155 CWA, DWL, and Policy Closure cases closed by the CWA
         Program in FY 2010.
         A. Obtained a list of cases closed in FY 2010 from the CWA Program staff.
         B. Obtained a download of cases closed in FY 2010 from the closed Integrated
            Collection System1 file available from the Treasury Inspector General for Tax
            Administration Data Center Warehouse.
         C. Validated the volume of cases closed in FY 2010 by comparing the data obtained in
            Steps I.A. and I.B.2
II.      Determined how the IRS monitors CWAs to ensure all related parties are acting in
         accordance with the terms of the agreements.
         A. Interviewed CWA Program management in Las Vegas, Nevada; Portland, Oregon;
            and Austin, Texas.
         B. Reviewed IRM 5.24 and training documents.
III.     Identified actions taken by the IRS in instances where withholding agents did not
         withhold and remit payments in accordance with the terms of the CWAs.
         A. Determined how the IRS identifies the CWAs where payment withholding and
            remittance was not in accordance with terms of the agreement through discussions
            with CWA Program management.
         B. Selected a random sample of 47 CWAs3 from the population of 629 CWAs closed in
            FY 2010 that were included in the data obtained in Step I to identify actions taken by
            the IRS and determined whether the actions were appropriate.


1
  See Appendix VIII for a glossary of terms.
2
  We compared the unique case numbers from each source and were able to reconcile the three differences we
identified between the files.
3
  We selected a random sample to eliminate bias and for the potential of projecting results. The population of
CWA cases closed in FY 2010 was 629. Our random sample of 47 cases was based on a confidence level of
90 percent, a precision of ±5 percent, and an error rate of 4.9 percent.
                                                                                                           Page 19
                                 Improvements Are Needed to Ensure the
                              Central Withholding Agreement Program Fosters
                                Nonresident Alien Withholding Compliance



IV.     Determined whether the IRS took appropriate actions on the DWLs and Policy Closures.
        A. Queried the data obtained in Step I to identify a population of 226 DWLs and
           300 Policy Closures closed in FY 2010.
        B. Selected random samples of 42 DWLs and 44 Policy Closures4 identified in
           Step IV.A. to identify actions taken by the IRS and determined whether the actions
           were appropriate by comparing information in the case files to the requirements
           outlined in the IRM 5.24.
V.      Evaluated steps taken by the IRS to promote the CWA Program, identify potential
        applicants, and provide information and guidance on the application process.
        A. Interviewed CWA Program management in Las Vegas, Nevada; Portland, Oregon;
           and Austin, Texas.
        B. Reviewed 27 site visitation reports prepared by tax specialists during the period
           October 2009 through February 2011.5
        C. Reviewed CWA Phone Forum documentation and information regarding the
           CWA Program available to the public on IRS.gov.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices for processing CWA applications. We evaluated these controls by interviewing
CWA Program management and reviewing random samples of CWA, DWL, and Policy Closure
case files.




4
  We selected a random sample to eliminate bias and for the potential of projecting results. Our random samples of
42 DWL cases and 44 Policy Closure cases were both based on a confidence level of 90 percent, a precision of
±5 percent, and an error rate of 5 percent.
5
  We requested all of the site visitation reports for the period of October 2009 through February 2011. However, the
IRS informed us they were unable to provide one report. We received and reviewed 27 site visitation reports.
                                                                                                           Page 20
                           Improvements Are Needed to Ensure the
                        Central Withholding Agreement Program Fosters
                          Nonresident Alien Withholding Compliance



                                                                            Appendix II

                Major Contributors to This Report

Margaret Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Amy Coleman, Audit Manager
Carole Connolly, Acting Audit Manager
Todd Anderson, Lead Auditor
Kristi Larson, Senior Auditor
Michele Jahn, Auditor




                                                                                   Page 21
                           Improvements Are Needed to Ensure the
                        Central Withholding Agreement Program Fosters
                          Nonresident Alien Withholding Compliance



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (International), Large Business and International Division SE:LB:IN
Executive Assistant (International), Large Business and International Division SE:LB:IN
Director, International Individual Compliance, Large Business and International Division
SE:LB:IN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Large Business and International Division SE:LB:IN




                                                                                     Page 22
                                   Improvements Are Needed to Ensure the
                                Central Withholding Agreement Program Fosters
                                  Nonresident Alien Withholding Compliance



                                                                                      Appendix IV

          Illustration of the Relationships Between the
              Various Entities for a Nonresident Alien
                  Involved in a United States Tour

                               NRA athlete/entertainer contacts agent about
                               touring in the United States.


                     Agent arranges routing of tour for NRA athlete/entertainer.


                       •   Agent offers tour date(s) to promoter.
                       •   Promoter submits bid to agent for tour date(s).
                       •   If the promoter pays a deposit to withholding agent, the
                           deposit is subject to a 30 percent rate of withholding. 


•   Promoter leases facility at venue (more than one promoter may deal with a particular venue).
•   After final receipts are collected, venue remits proceeds to promoter after venue deducts its
    normal operating expenses (net box office receipts).
•   Absent a CWA, the withholding rate is at 30 percent on net box office receipts paid to or for
    the benefit of the NRA athlete/entertainer.
•   Withholding agent has withholding, depositing, and filing responsibility for any proceeds paid
    to or for the benefit of the NRA athlete/entertainer (files an Annual Withholding Tax Return
    for U.S. Source Income of Foreign Persons (Form 1042), and a Foreign Person’s U.S. Source
    Income Subject to Withholding (Form 1042-S)). 


                     NRA athlete/entertainer reports personal service income
                     and withholding credits on an U.S. Nonresident Alien
                     Income Tax Return (Form 1040NR).

Source: IRM Figure 5.24.2-1.

                                                                                             Page 23
                    Improvements Are Needed to Ensure the
                 Central Withholding Agreement Program Fosters
                   Nonresident Alien Withholding Compliance



                                                          Appendix V

    Example of a Directed Withholding and
      Deposit Verification (Form 13920)




Source: IRM 5.24.3

                                                                 Page 24
                                     Improvements Are Needed to Ensure the
                                  Central Withholding Agreement Program Fosters
                                    Nonresident Alien Withholding Compliance



                                                                                        Appendix VI

                              Statistics of the Central
                          Withholding Agreement Program

                          Central Withholding Agreement (CWA) Program
                                                             FY 2008        FY 2009       FY 2010

      Director of Collection Report Items
      Total Assignments                                        N/A           1,527          1,776
      Number of CWAs                                           655            944           994
      Number of DWLs Issued to Venues                          993           1,052          1,265
      Total Withholding Revenue                         $59,597,656       $70,862,319    $58,979,352
      CWA
  1   Number of Individuals With CWAs                          N/A            434           612
  2   Number of CWAs                                           655            944           994
  3   Number of Streamlined Cases                              230            600           673
  4   Number of CWAs 3rd Level Review/Approval                 38             43             20
  5   Number of CWAs With Counsel Review                       45             63             18
      DWL
  6   Number of Individuals for Whom DWLs Were Issued          N/A            360           456
  7   Number of DWLs Issued to Venues                          993           1,052          1,265
  8   Number of DWLs Confirmed Deposits                        352            303           316
  9   Number of CWAs Entered Into After DWL Issued             N/A            106            67
      Policy Closures
 10   Policy Closures                                          41             159           315
      Returns
 11   Number of Returns Secured                                197            110           118
 12   Number of Tax Returns With Balance Due                   N/A             9             34
 13   Balance Due Amount                                       N/A          $14,092       $392,575
      Inventory – Assignments
 14   Total Assignments – New Receipts                         N/A           1,527          1,776
      Revenue
 15   CWA                                                $49,604,367      $59,005,844    $47,521,376
 16   DWL                                                    $9,583,417   $11,337,891    $10,988,829
 17    Actual Withholding Revenue                        $59,187,784      $70,343,735    $58,510,205
 18   Other Income/Withholding                                $409,872      $518,584        $469,147
 19    Total Withholding Revenue                         $59,597,656      $70,862,319    $58,979,352
Source: CWA Statistical Reports for FYs 2008 through 2010.


                                                                                                  Page 25
                       Improvements Are Needed to Ensure the
                    Central Withholding Agreement Program Fosters
                      Nonresident Alien Withholding Compliance



                                                                          Appendix VII

          Internal Revenue Manual References

IRM 5.24.2.2(1)         Requires that the case file must contain the necessary
                        information for the reader to quickly ascertain case status.
IRM 5.24.2.2(3)         Requires that each case file must contain an Activity Record,
                        a copy of the current CWA, and copies of all letters sent to the
                        taxpayer or withholding agent.
IRM 5.24.2.5            Requires tax specialists to make initial contact with the
                        taxpayer or the taxpayer’s representative within 72 hours of
                        case assignment.
IRM 5.24.3.2            Requires tax specialists to retain a copy of the completed
                        signed CWA in the case file.
IRM 5.24.3.2(2)c        Requires tax specialists to follow up with the taxpayer’s
                        representative after 7 days if a CWA was sent and there is no
                        confirmation that the representative received the CWA and
                        returned it to the IRS for signature.
IRM 5.24.3.6(2)         Requires tax specialists to take appropriate action when a
                        CWA has not been signed prior to the first tour or event date.
IRM 5.24.3.8            Requires confirmation of CWA deposits and CWA contracts
                        require that deposits be made through EFTPS.
IRM 5.24.3.9.1(2)       Requires site visitation reports to include the business
                        purpose, approvals requested and received, date of visit, name
                        of person who provided the site tour, revenue sources
                        discussed, facility tour information, and other information.
IRM 5.24.3.12(2)        Requires tax specialists to initiate one follow-up contact with
                        a venue for any DWL where no response is received.
IRM 5.24.3.13           Requires managerial concurrence for policy closures.




                                                                                       Page 26
                      Improvements Are Needed to Ensure the
                   Central Withholding Agreement Program Fosters
                     Nonresident Alien Withholding Compliance



                                                                          Appendix VIII

                         Glossary of Terms

Central Withholding      A contract between an NRA athlete or entertainer, a
Agreement                designated withholding agent, and an authorized
                         representative of the IRS for a specific tour or series of
                         events, which provides for the correct amount of withholding
                         based upon net income at graduated rates.
Central Withholding      A prefiling program for NRA athletes and entertainers
Agreement Program        performing independent personal services in the United States
                         who wish to reduce their tax withholding by entering into an
                         agreement with the IRS.
Data Center              The Data Center Warehouse provides data and data access
Warehouse                services; centralizes storage, security, and administration of
                         files; and develops uniform and user-friendly interfaces for
                         users to access data.
Electronic Federal Tax   The EFTPS was designed to process Federal tax deposits and
Payment System           all other types of business and individual payments.

Employer                 A unique nine-digit number used to identify a taxpayer’s
Identification Number    business account.

Examination Quality      The Small Business/Self-Employed Division’s process to
Measurement System       measure examination quality and assess long-term trends of
                         performance, in keeping with the IRS’s balanced measures.
                         It is used to identify national trends, system changes, and
                         training needs; establish baselines; and provide an
                         understanding of the quality of examinations.
Foreign Person           A foreign person includes a nonresident alien individual, a
                         foreign corporation, a foreign partnership, a foreign trust, a
                         foreign estate, and any other person who is not a U.S. person.
Individual Taxpayer      A Taxpayer Identification Number issued by the IRS to
Identification Number    individuals who are required for U.S. tax purposes to have a
                         Taxpayer Identification Number but do not have, and are not
                         eligible to obtain, an SSN.


                                                                                     Page 27
                       Improvements Are Needed to Ensure the
                    Central Withholding Agreement Program Fosters
                      Nonresident Alien Withholding Compliance



Installment Agreement     Installment agreements are generally equal monthly payments
                          that will result in full payment of the taxes owed within the
                          10-year period during which the IRS is allowed to collect.
Integrated Collection     An information management system designed to improve
System                    revenue collections by providing revenue officers access to
                          the most current taxpayer information, while in the field,
                          using laptop computers for quicker case resolution and
                          improved customer service.
Internal Revenue          The primary guidance relating to the administration and
Manual                    operation of the IRS. It contains the directions IRS
                          employees need to carry out their responsibilities in
                          administering the tax laws or other agency obligations.
Master File               The IRS database that stores various types of taxpayer
                          account information. This database includes individual,
                          business, and employee plans and exempt organizations data.
Nonresident Alien         An individual who is not a U.S. citizen or U.S. national who
                          has not passed the green card test or the substantial presence
                          test.
Personally Identifiable   Specific type of sensitive information which includes
Information               personal data of taxpayers.

Policy Closure            Cases closed due to policy decisions (staffing, date of receipt
                          of request is late) and a DWL is not issued.
Sensitive But             Information which, if lost, misused, accessed, or modified in
Unclassified              an unauthorized way, could adversely affect the national
Information               interest, the conduct of Federal programs, or the privacy of
                          individuals.
U.S. Person               A U.S. person is defined by the I.R.C. § 7701(a)(30) as a
                          citizen or resident of the United States, domestic partnership,
                          domestic corporation, any estate (not defined as a foreign
                          estate under I.R.C. § 7701(a)(31)), and any trust, if
                          administered by a U.S. court or supervised by one or more
                          U.S. persons.




                                                                                      Page 28
                      Improvements Are Needed to Ensure the
                   Central Withholding Agreement Program Fosters
                     Nonresident Alien Withholding Compliance




U.S. Sourced Personal   All wages and any other compensation for services performed
Service Income          in the United States are considered to be from sources in the
                        United States. The place where the services are performed
                        determines the source of the income, regardless of where the
                        contract was made, the place of payment, or the residence of
                        the payer.




                                                                                 Page 29
           Improvements Are Needed to Ensure the
        Central Withholding Agreement Program Fosters
          Nonresident Alien Withholding Compliance



                                                Appendix IX

Management’s Response to the Draft Report




                                                        Page 30
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 31
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 32
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 33
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 34
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 35
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 36
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 37
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 38
   Improvements Are Needed to Ensure the
Central Withholding Agreement Program Fosters
  Nonresident Alien Withholding Compliance




                                                Page 39
